npp eno/lye
ir Cuif ls 6oci-er ~/z> c/xf.

deft

States Court of Appeals;
for tf)e jftfff) Circuit
No. 19-10844
A True Copy
Certified order issued Sep 03, 2020

vJwfc W. @Oij(jL

Kevin Wayne Dickson,

Clerk, U.S. Court of Appeals, Fifth Circuit

Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-1668

ORDER:
Kevin Wayne Dickson, Texas prisoner # 1946777, movesa
certificate of appealability (COA) to appeal the district court’s denial of his .
28 U.S.C. § 2254 application challenging his' conviction"and sentence for
murder. He argues that his trial counsel rendered ineffective assistance by
failing to call an expert in toxicology and failing to investigate mitigating
evidence pertinent to sentencing and, further, that the prosecution engaged
in misconduct through the use of perjured testimony. Dickson also contends
that the district court erred in its construction of his claim challenging the
admission of evidence concerning a ballistics report that was prepared by a

No. 19-10844

firearms examiner who did not testify at trial. He does not renew his claims
that trial counsel was ineffective in failing to call a ballistics expert and failing
to move to suppress evidence based on misrepresentations in the probable
cause affidavit; that the trial court abused its discretion in denying his motion
to suppress evidence obtained from searches of his cellphone and vehicle and
in admitting “unadjudicated extraneous offense testimony”; and that he is
actually innocent. Thus, those issues are abandoned. See Hughes v. Johnson,
191 F.3d 607, 613 (5th Cir. 1999).
In order to obtain a COA, Dickson must make “a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see Slack v.
McDaniel, 529 U.S. 473, 483-84 (2000). Where the district court denies
relief on the merits, a movant must show that reasonable jurists “would find
the district court’s assessment of the constitutional claims debatable or
wrong.” Slack, 529 U.S. at 484. Where the district court denies federal
habeas relief on procedural grounds, the movant must demonstrate that
reasonable jurists would find it debatable whether the application states a
valid claim of the denial of a constitutional right and whether the district
court was correct in its procedural ruling. Id. A movant satisfies the COA
standard “by demonstrating that jurists of reason could disagree with the
district court’s resolution of his constitutional claims or that jurists could
conclude the issues presented are adequate to deserve encouragement to
proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). Dickson
has not met this standard.
Accordingly, his motion for a COA is D E NIE D.

JAMES C. HO
United States Circuit Judge

2

Case: 19-10844

Document: 00515579691

Page: 1

Date Filed: 09/25/2020

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

September 25, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 19-10844

Kevin Dickson v. Bobby Lumpkin, Director
USDC No. 3:18-CV-1668

Enclosed is an order entered in this case.

Sincerely,
LYLE W. CAYCE, Clerk
>N)0l
By:
Melissa V.Mattingly,Deputy Clerk
504-310-7719
Mr. Kevin Wayne Dickson
Ms. Gretchen Berumen Merenda

Case: 19-10844

Document: 00515579692

Page: 1

Date Filed: 09/25/2020

tHniteb States: Court of Appeals
for tfje Jftftf) Circuit
No. 19-10844

Kevin Wayne Dickson
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-1668

Before Willett, Ho, and Duncan, Circuit Judges.
Per Curiam:
A member of this panel previously DENIED appellant’s motion for
a certificate of appealability. The panel has considered appellant's motion for
reconsideration.
IT IS ORDERED that the motion is DENIED.

Case 3:18-cv-01668-G-BN Document 28 Filed 06/24/19

Page 1 of 1 PagelD 1814

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

KEVIN WAYNE DICKSON
(TDCJNo. 1946777),
Petitioner,

)
)
)
)

VS.

CIVIL ACTION NO.

)
)

LORIE DAVIS, Director
Texas Department of Criminal Justice,
Correctional Institutions Division,

3:18-CV-I668-G (BN)

)
)
)
)

Respondent.

)

JUDGMENT
This action came on for consideration by the court, and the issues having been
duly considered and a decision duly rendered,
It is ORDERED, ADJUDGED and DECREED that:
1.

The petition for habeas corpus relief pursuant to 28 U.S.C. § 2254 is

DENIED with prejudice.
2.

The clerk shall transmit a true copy of this judgment and the order

accepting the findings and recommendation of the United States Magistrate Judge to
all parties.
June 24, 2019.

Senior United States District Judge

Case 3:18-cv-01668-G-BN Document 27 Filed 06/24/19

Page 1 of 3 PagelD 1811

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

KEVIN WAYNE DICKSON
(TDCJNo. 1946777),

)
)

CIVIL ACTION NO.

)

Petitioner,

)

3:18-CV-1668-G (BN)

)

VS.

)

LORIE DAVIS, Director
Texas Department of Criminal Justice,
Correctional Institutions Division,

)

)
)
)
)

Respondent.

)

ORDER ACCEPTING FINDINGS. CONCLUSIONS AND
RECOMMENDATION OF THE UNITED STATES MAGISTRATE
JUDGE, AND DENYING A CERTIFICATE OF APPEALABILITY
The United States Magistrate Judge made findings, conclusions and a
recommendation in this case. Petitioner filed objections, and the district court has
made a de novo review of those portions of the proposed findings and
recommendation to which objection was made. The objections are overruled, and the
court ACCEPTS the findings, conclusions and recommendation of the United States
Magistrate Judge.

Case 3:18-cv-01668-G-BN Document 27 Filed 06/24/19

Page 2 of 3 PagelD 1812

It is therefore ORDERED that the petition for habeas corpus relief pursuant
to 28 U.S.C. § 2254 is DENIED.
Considering the record in this case and pursuant to Federal Rule of Appellate
Procedure 22(b), Rule 11(a) of the Rules Governing §§ 2254 and 2255 proceedings,
and 28 U.S.C. § 2253(c), the court DENIES a certificate of appealability. The court
adopts and incorporates by reference the magistrate judge’s findings, conclusions and
recommendation filed in this case in support of its finding that the petitioner has
failed to show (1) that reasonable jurists would find this court’s “assessment of the
constitutional claims debatable or wrong,” or (2) that reasonable jurists would find
“it debatable whether the petition states a valid claim of the denial of a constitutional
right” and “debatable whether [this Court] was correct in its procedural ruling.” Slack
v. McDaniel, 529 U.S. 473, 484 (2000).*

Rule 11 of the Rules Governing §§ 2254 and 2255 Cases, as amended
effective on December 1, 2009, reads as follows:
(a) Certificate of Appealability. The
district court must issue or deny a certificate
of appealability when it enters a final order
adverse to the applicant. Before entering the
final order, the court may direct the parties to
submit arguments on whether a certificate
should issue. If the court issues a certificate,
the court must state the specific issue or
issues that satisfy the showing required by 28
U.S.C. § 2253(c)(2). If the court denies a
certificate, the parties may not appeal the
(continued...)
-2-

Case 3:18-cv-01668-G-BN Document 27 Filed 06/24/19

Page 3 of 3 PagelD 1813

In the event, the petitioner will file a notice of appeal, the court notes that
( )

the petitioner will proceed in forma pauperis on appeal.

(X)

the petitioner will need to pay the $505.00 appellate filing
fee or submit a motion to proceed in forma pauperis.

SO ORDERED.
June 24, 2019.

Senior United States District Judge

‘(...continued)
denial but may seek a certificate from the
court of appeals under Federal Rule of
Appellate Procedure 22. A motion to
reconsider a denial does not extend the time
to appeal.
(b) Time to Appeal. Federal Rule of
Appellate Procedure 4(a) governs the time to
appeal an order entered under these rules. A
timely notice of appeal must be filed even if
the district court issues a certificate of
appealability.
-3 -

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 1 of 23 PagelD 1771

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
KEVIN WAYNE DICKSON
(TDCJ No. 1946777),

§
§
§
§
§
§
§
§
§
§
§
§

Petitioner,
V.
LORIE DAVIS, Director
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

No. 3:18-cv-1668-G-BN

FINDINGS, CONCLUSIONS, AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
Petitioner Kevin Wayne Dickson, a Texas inmate, filed a pro se application for
writ of habeas corpus under 28 U.S.C. § 2254. See Dkt. No. 3. This resulting action has
been referred to the undersigned United States magistrate judge for pretrial
management under 28 U.S.C. § 636(b) and a standing order of reference from Senior
United States District Judge A. Joe Fish.
The State filed a response opposing relief, see Dkt. No. 12, to which Dickson filed
a reply. See Dkt. No. 20.
For the reasons explained below, the Court should deny Dickson’s federal habeas
petition.
Applicable Background
A jury found Petitioner guilty of the offenses of murder and assessed his
punishment at life imprisonment. See Dickson v. State, No. 05-14-01061-CR, 2016 WL
1

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 2 of 23 PagelD 1772

772766, at *1 (Tex. App. - Dallas February 29, 2016, no pet.); see State v. Dickson, No.
F-1257075-K (4th Crim. Dist. Ct., Dallas Cty., Tex.). The Dallas Court of Appeals
affirmed the judgment of the trial court. See Dickson, 2016 WL 772766, at *8. Dickson
did not file a petition for discretionary review with the Texas Court of Criminal
Appeals (“CCA”). See Dkt. No. 3 at 3.
Dickson filed a state application for writ of habeas corpus claiming his attorney
was constitutionally ineffective on numerous grounds; prosecutorial misconduct by
using false evidence and by coaching witnesses; trial court error by failing to grant a
suppression motion and by allowing extraneous, inadmissible evidence; and that he is
actually innocent. See Dkt. No. 14-33 at 5-28. On April 11, 2018, the CCA denied
Dickson’s application without written order on the findings of the trial court without
a hearing. See Ex parte Dickson, WR-48,121-03 (Tex. Crim. App. April 11, 2018); Dkt.
No. 14-25.
In his timely-filed federal habeas application, Dickson raises the same grounds
for relief that he raised in his state application. See Dkt. No. 3 at 7-16.
Legal Standards and Analysis
I.

Claims
Dickson makes three claims of ineffective assistance of counsel, two claims of

prosecutorial misconduct, two claims of trial court error, and a claim that there was
insufficient evidence to convict. See Dkt. No. 3 at 7-17.
Where a state court has already rejected a claim on the merits, a federal court

2

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 3 of 23 PagelD 1773

may grant habeas relief on that claim only if the state court adjudication:
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.
28 U.S.C. § 2254(d).
A state court adjudication on direct appeal is due the same deference under
Section 2254(d) as an adjudication in a state post-conviction proceeding. See, e.g.,
Dowthitt v. Johnson, 230 F.3d 733, 756-57 (5th Cir. 2000) (a finding made by the CCA
on direct appeal was an “issue ... adjudicated on the merits in state proceedings,” to be
“examine[d]... with the deference demanded by [the Antiterrorism and Effective Death
Penalty Act of 1996 (the “AEDPA”)]” under “28 U.S.C. § 2254(d)”).
A state court decision is “contrary” to clearly established federal law if “it relies
on legal rules that directly conflict with prior holdings of the Supreme Court or if it
reaches a different conclusion than the Supreme Court on materially indistinguishable
facts.” Busby v. Dretke, 359 F.3d 708, 713 (5th Cir. 2004); see also Lopez v. Smith, 574
U.S.

., 135 S. Ct. 1, 2 (2014) (per curiam) (“We have emphasized, time and time

again, that the AEDPA prohibits the federal courts of appeals from relying on their
own precedent to conclude that a particular constitutional principle is ‘clearly
established.’” (citation omitted)).
A decision constitutes an “unreasonable application” of clearly established
federal law if “the state court identifies the correct governing legal principle from [the
3

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 4 of 23 PagelD 1774

Supreme] Court’s decisions but unreasonably applies that principle to the facts of the
prisoner’s case.” Williams v. Taylor, 529 U.S. 362, 413 (2000); see also Pierre v. Vannoy,
891 F.3d 224, 227 (5th Cir. 2018) (a petitioner’s lack of “Supreme Court precedent to
support” a ground for habeas relief “ends [his] case” as to that ground).
“For purposes of § 2254(d)(1), an unreasonable application of federal law is
different from an incorrect application of federal law.... A state court’s determination
that a claim lacks merit precludes federal habeas relief so long as fairminded jurists
could disagree on the correctness of the state court’s decision.” Harrington v. Richter,
562 U.S. 86, 101 (2011) (citations and internal quotation marks omitted). “Under §
2254(d), a habeas court must determine what arguments or theories supported or ...
could have supported, the state court’s decision; and then it must ask whether it is
possible fairminded jurists could disagree that those arguments or theories are
inconsistent with the holding in a prior decision of [the Supreme] Court.” Id. at 102
(internal quotation marks omitted); see Evans v. Davis, 875 F.3d 210, 216 (5th Cir.
2017) (recognizing that Section 2254(d) tasks courts “with considering not only the
arguments and theories the state habeas court actually relied upon to reach its
ultimate decision but also all the arguments and theories it could have relied upon”
(citation omitted)).
The Supreme Court has further explained that “[evaluating whether a rule
application was unreasonable requires considering the rule’s specificity. The more
general the rule, the more leeway courts have in reaching outcomes in case-by-case
determinations.” Richter, 562 U.S. at 101 (internal quotation marks omitted). And
4

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 5 of 23 PagelD 1775

even a strong case for relief does not mean the state court’s contrary conclusion was
unreasonable.” Id. at 102. The Supreme Court has explained that, “[i]f this standard
is difficult to meet, that is because it was meant to be,” where, “[a]s amended by
AEDPA, § 2254(d) stops short of imposing a complete bar on federal court relitigation
of claims already rejected in state proceedings,” but “[i]t preserves authority to issue
the writ in cases where there is no possibility fairminded jurists could disagree that the
state court’s decision conflicts with this Court’s precedents,” and “[i]t goes no further.”
Id. Thus, “[a]s a condition for obtaining habeas corpus from a federal court, a state
prisoner must show that the state court’s ruling on the claim being presented in federal
court was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.” Id.
at 103; accord Burt u. Titlow, 571 U.S. 12, 20 (2013) (“If this standard is difficult to
meet - and it is - that is because it was meant to be. We will not lightly conclude that
a State s criminal justice system has experienced the extreme malfunction for which
federal habeas relief is the remedy.” (internal quotation marks, brackets, and citations
omitted)).
As to Section 2254(d)(2)’s requirement that a petitioner show that the state court
adjudication resulted in a decision that was based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceeding,” the
Supreme Court has explained that “a state-court factual determination is not
unreasonable merely because the federal habeas court would have reached a different
conclusion in the first instance and that federal habeas relief is precluded even where
5

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 6 of 23 PagelD 1776

the state court’s factual determination is debatable. Wood v. Allen, 558 U.S. 290, 301,
303 (2010). Under this standard, “it is not enough to show that a state court’s decision
was incorrect or erroneous. Rather, a petitioner must show that the decision was
objectively unreasonable, a substantially higher threshold requiring the petitioner to
show that a reasonable factfinder must conclude that the state court’s determination
of the facts was unreasonable.” Batchelor v. Cain, 682 F.3d 400, 405 (5th Cir. 2012)
(brackets and internal quotation marks omitted).
The Court must presume that a state court’s factual determinations are correct
and can find those factual findings unreasonable only where the petitioner “rebut [s]
the presumption of correctness by clear and convincing evidence.” 28 U.S.C. §
2254(e)(1); Gardner u. Johnson, 247 F.3d 551, 560 (5th Cir. 2001). This presumption
applies not only to explicit findings of fact but also “to those unarticulated findings
which are necessary to the state court’s conclusions of mixed law and fact.” Valdez v.
Cockrell, 274 F.3d 941, 948 n.ll (5th Cir. 2001); see also Richter, 562 U.S. at 98
(“[Djetermining whether a state court’s decision resulted from an unreasonable legal
or factual conclusion does not require that there be an opinion from the state court
explaining the state court’s reasoning.”); Pondexter v. Dretke, 346 F.3d 142, 148 (5th
Cir. 2003) (“a federal habeas court is authorized by Section 2254(d) to review only a
state court’s ‘decision,’ and not the written opinion explaining that decision” (quoting
Neal u. Puckett, 286 F.3d 230, 246 (5th Cir. 2002) (en banc) (per curiam))); cf. Evans,
875 F.3d at 216 n.4 (even where “[t]he state habeas court’s analysis [is] far from

6

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 7 of 23 PagelD 1777

thorough,” a federal court “may not review [that] decision de novo simply because [it
finds the state court’s] written opinion ‘unsatisfactory’” (quoting Neal, 286 F.3d at
246)).
Section 2254 thus creates a “highly deferential standard for evaluating state
court rulings, which demands that state-court decisions be given the benefit of the
doubt. Woodford v. Visciotti, 537 U.S. 19, 24 (2002). To overcome this standard, a
petitioner must show that “there was no reasonable basis for the state court to deny
relief.” Richter, 562 U.S. at 98.
That is, a Section 2254 petitioner must, in sum, “show, based on the state-court
record alone, that any argument or theory the state habeas court could have relied on
to deny [him] relief would have either been contrary to or an unreasonable application
of clearly established federal law as determined by the Supreme Court.” Evans, 875
F.3d at 217.
A.

Ineffective Assistance

Dickson makes three claims of ineffective assistance of counsel. Specifically,
Dickson argues counsel was ineffective by (1) failing to call expert ballistics and
toxicology expert, (2) failing to move to suppress evidence based on misrepresentations
in the probable cause affidavit, and (3) failing to investigate mitigating evidence. See
Dkt. No. 3 at 7-10.
The Court reviews claims concerning the alleged ineffective assistance of counsel
(“IAC”), whether at trial or on direct appeal, under the two-prong test established in
Strickland v. Washington, 466 U.S. 668 (1984). Under Strickland, a habeas petitio ner
7

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 8 of 23 PagelD 1778

must demonstrate that the performance of his attorney fell below an objective standard
of reasonableness. See id. at 687-88. A petitioner must prove entitlement to relief by
a preponderance of the evidence. James v. Cain, 56 F. 3d 662, 667 (5th Cir. 1995). To
be cognizable under Strickland, trial counsel’s error must be “so serious that counsel
was not functioning as the ‘counsel’ guaranteed the defendant by the Sixth
Amendment.” Id. at 687; see also Buck v. Davis, 580 U.S.

, 137 S. Ct. 759, 775

(2017) (reaffirming that [i]t is only when the lawyer’s errors were ‘so serious that
counsel was not functioning as the “counsel” guaranteed ... by the Sixth Amendment’
that Stricklands first prong is satisfied” (citation omitted)).
The petitioner also must prove that he was prejudiced by his attorney’s
substandard performance. See Strickland, 466 U.S. at 687, 692. “This requires showing
that counsel’s errors were so serious as to deprive the defendant of a fair trial, a trial
whose result is reliable.” Id. at 687.
[Bjecause of the risk that hindsight bias will cloud a court’s review of
counsel’s trial strategy, “a court must indulge a strong presumption
that counsel’s conduct falls within the wide range of reasonable
professional assistance; that is, the defendant must overcome the
presumption that, under the circumstances, the challenged action
might be considered sound trial strategy.”
Feldman v. Thaler, 695 F.3d 372, 378 (5th Cir. 2012) (quoting Strickland, 466 U.S. at
689).
“A conscious and informed decision on trial tactics and strategy cannot be the
basis for constitutionally ineffective assistance of counsel unless it is so ill chosen that
it permeates the entire trial with obvious unfairness.” Cotton v. Cockrell, 343 F.3d 746,
8

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 9 of 23 PagelD 1779

752-53 (5th Cir. 2003). Moreover,“[j]ust as there is no expectation that competent
counsel will be a flawless strategist or tactician, an attorney may not be faulted for a
reasonable miscalculation or lack of foresight or for failing to prepare for what appear
to be remote possibilities.” Richter, 562 U.S. at 110. “The Supreme Court has
admonished courts reviewing a state court’s denial of habeas relief under AEDPA that
they are required not simply to give [the] attorney’s the benefit of the doubt, ... but to
affirmatively entertain the range of possible reasons [petitioner’s] counsel may have
had for proceeding as they did.” Clark v. Thaler, 673 F. 3d 410, 421 (5th Cir. 2012)
(internal quotation marks omitted).
Therefore, on habeas review under AEDPA, “if there is any ‘reasonable
argument that counsel satisfied Strickland’s deferential standard,’ the state court’s
denial must be upheld.” Rhoades v. Davis, 852 F.3d 422, 432 (5th Cir. 2017) (quoting
Richter, 562 U.S. at 105).
To demonstrate prejudice, a habeas petitioner “must show that there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Strickland, 466 U.S. at 694. Thus,
the question is not whether a court can be certain counsel’s performance had no effect
on the outcome or whether it is possible a reasonable doubt might have been
established if counsel acted differently.” Richter, 562 U.S. at 111. “Instead, Strickland
asks whether it is ‘reasonably likely’ the result would have been different,” which “does

9

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 10 of 23 PagelD 1780

not require a showing that counsel’s actions ‘more likely than not altered the outcome,’
but the

difference between

Strickland’s

prejudice

standard

and

a

more

probable-than-not standard is slight and matters ‘only in the rarest case.” Id. at 111-12
(quoting Strickland, 466 U.S. at 693, 696, 697). “The likelihood of a different result
must be substantial, not just conceivable.” Richter, 562 U.S. at 112.
IAC claims are considered mixed questions of law and fact and are therefore
analyzed under the “unreasonable application” standard of 28 U.S.C. § 2254(d)(1). See
Gregory v. Thaler, 601 F. 3d 347, 351 (5th Cir. 2010). Where the state court adjudicated
ineffective-assistance claims on the merits, this Court must review a habeas
petitioner’s claims under the “doubly deferential” standards of both Strickland and
Section 2254(d). Cullen v. Pinholster, 563 U.S. 170, 190, 202 (2011); see also Rhoades,
852 F.3d at 434 (“Our federal habeas review of a state court’s denial of an
ineffective-assistance-of-counsel claim is ‘doubly deferential’ because we take a highly
deferential look at counsel’s performance through the deferential lens of § 2254(d).”
(citation omitted)).
In such cases, the “pivotal question” for this Court is not “whether defense
counsel’s performance fell below Stricklands standard”; it is “whether the state court’s
application of the Strickland standard was unreasonable.” Richter, 562 U.S. at 101; see
also id. at 105 (“Establishing that a state court’s application of Strickland was
unreasonable under § 2254(d) is all the more difficult. The standards created by
Strickland and § 2254(d) are both ‘highly deferential,’ and when the two apply in

10

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 11 of 23 PagelD 1781

tandem, review is ‘doubly’ so.” (internal quotation marks and citations omitted)).
In other words, AEDPA does not permit a de novo review of state counsel’s
conduct in these claims under Strickland. See id. at 101-02. Instead, on federal habeas
review of a claim that was fully adjudicated in state court, the state court’s
determination is granted ‘a deference and latitude that are not in operation when the
case involves review under the Strickland standard itself.” Id. at 101; see also Woods
v. Etherton, 578 U.S.

136 S. Ct. 1149, 1151 (2016) (per curiam) (explaining that

federal habeas review of ineffective-assistance-of-counsel claims is “doubly deferential”
“because counsel is ‘strongly presumed to have rendered adequate assistance and made
all significant decisions in the exercise of reasonable professional judgment’”; therefore,
“federal courts are to afford ‘both the state court and the defense attorney the benefit
of the doubt’” (quoting Burt, 571 U.S. at 22, 15)); Johnson v. Secy, DOC, 643 F.3d 907,
910-11 (11th Cir. 2011) (“Double deference is doubly difficult for a petitioner to
overcome, and it will be a rare case in which an ineffective assistance of counsel claim
that was denied on the merits in state court is found to merit relief in a federal habeas
proceeding.”).
Dickson claims that his counsel’s defense was inadequate in that he failed to
present an expert “to testify about gunshot residue” (“ballistics expert”) and “an expert
toxicologist to impeach the credibility of the deceased dying declaration.” Dkt. No. 3 at
7-8. Dickson contends that a ballistics expert “would have established that a
reasonable doubt existed as to the state’s expert’s theory of being shot inside
[Dickson’s] vehicle and pushed out into the street.” Dkt. No. 3 at 8. He asserts that a
11

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 12 of 23 PagelD 1782

toxicologist could have “impeachfed] the credibility of the deceased’s dying declaration”
and “would have been able to testify as to the competency level of the deceased due to
the drugs.” Id.
Dickson’s conclusory statements are insufficient. “[C]omplaints of uncalled
witnesses are not favored in federal habeas corpus review because allegations of what
the witness would have testified are largely speculative.” Evans v. Cockrell, 285 F.3d
370, 377 (citation omitted). Petitioners alleging ineffective assistance of counsel must
“name the witness, demonstrate that the witness was available to testify and would
have done so, set out the content of the witness’s proposed testimony, and show that
the testimony would have been favorable to a particular defense.” Day v. Quarterman,
566 F.3d 527, 538 (5th Cir. 2009). This requirement applies to “uncalled lay and expert
witnesses alike.” Id.
Here, Dickson fails to name any ballistic or toxicology expert witnesses, much
less demonstrate that they were available and willing to testify. Thus, Dickson’s claim
is insufficient to demonstrate counsel provided ineffective assistance.
Dickson next contends that his counsel was ineffective by failing to move to
suppress evidence “based on material misrepresentation of facts contained in the
probable cause affidavits.” Dkt. No. 3 at 7. Dickson alleges that the witnesses failed to
confirm a make or model, but described the vehicle as ‘brownish maroon or black SUV
type vehicle” and that “the description in the search warrant was obtained by police
surveillance, not any witness.” Id. at 9. Dickson provides no support from the record
for this claim. Dickson’s claim, standing alone, unsupported by evidence from the
12

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 13 of 23 PagelD 1783

record, is insufficient. See Schlang v. Heard, 691 F.2d 796, 799 (5th Cir. 1982) (stating
“[m]ere conclusory statements do not raise a constitutional issue in a habeas case.”).
Furthermore, Dickson fails to demonstrate, or even allege, how his attorney’s supposed
deficient performance prejudiced him. Presenting “conclusory allegations” of deficient
performance or prejudice is insufficient to meet the Strickland test. See Miller v.
Johnson, 200 F.3d 274, 282 (5th Cir. 2000).
Dickson additionally contends that counsel provided ineffective assistance by
failing to investigate mitigating evidence. See Dkt. No. 3 at 10. Specifically, Dickson
alleges that his counsel only spoke to him for less than two hours before trial and that
counsel never discussed anything with applicant in regards to any character witnesses
that would have been available.” Dkt. No. 3 at 10-11. This conclusory claim is also
insufficient to demonstrate his attorney provided ineffective assistance. See Miller, 200
F.3d at 282. Dickson s claim is also insufficient as he fails to name any character
witness that his attorney should have, but failed to call, or to demonstrate that any
witnesses were available and willing to testify. See Day, 566 F.3d at 538.
To the extent that Dickson argues that his counsel failed to investigate
mitigating evidence other than character witnesses, Dickson fails to specify what any
investigation by his counsel would have revealed or how it would have altered the
outcome of his trial. This is insufficient. A petitioner “who alleges a failure to
investigate on the part of his counsel must allege with specificity what the
investigation would have revealed and how it would have altered the outcome of the

13

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 14 of 23 PagelD 1784

trial.” Trevino v. Davis, 829 F.3d 328, 338 (5th Cir. 2016) (internal quotations omitted).
And, as to Dickson’s statement that his counsel “spoke to [him] less than two hours
before trial,” this complaint is also insufficient. The United States Court of Appeals for
the Fifth Circuit has explained that “brevity of consultation time with the client does
not establish a claim for ineffective assistance of counsel unless a defendant can show
what benefit would have resulted from more consultation time.” United States v.
Bernard, 762 F.3d 467, 478 (5th Cir. 2014).
And the undersigned has reviewed the state habeas court’s findings and
conclusions as to the applicable IAC claims, see Dkt. No. 14-32 at 14-16, and, because
not one amounts to an unreasonable application of Strickland or an unreasonable
determination of the evidence,” Garza v. Stephens, 738 F.3d 669, 680 (5th Cir. 2013)
(citing 28 U.S.C. § 2254(d)(l)-(2)), Dickson fails to show that his Sixth Amendment
right to effective counsel was violated. Dickson also has not shown that these state
court determinations are unreasonable by showing there is a reasonable probability
that, but for counsel’s unprofessional errors, the result of the proceeding would have
been different.” Strickland, 466 U.S. at 694.
B.

Prosecutorial Misconduct

Dickson makes two claims of prosecutorial misconduct. He argues that the
prosecution knowingly (1) used false ballistics evidence at trial and (2) coached and
manipulated witness testimony. See Dkt. No. 3 at 10, 12-13.
Prosecutorial misconduct may “so infec[t] the trial with unfairness as to make

14

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 15 of 23 PagelD 1785

the resulting conviction a denial of due process.” Donnelly u. DeChristoforo, 416 U.S.
637, 643 (1974). “To constitute a due process violation, the prosecutorial misconduct
must be of sufficient significance to result in the denial of the defendant’s right to a fair
trial.” Greer v. Miller, 483 U.S. 756, 765 (1987) (citation and internal citation omitted).
To demonstrate a due process violation in allegations of a prosecutor’s use of perjured
testimony, a petitioner must prove (1) the testimony in question was actually false, (2)
the prosecutor was aware of the perjury, and (3) the testimony was material. See
Faulder v. Johnson, 81 F.3d 515, 519 (5th Cir. 1996). But perjury is not established by
mere contradictory testimony from witnesses, inconsistencies within a witness’
testimony, and conflicts between reports, written statements, and the trial testimony
of prosecution witnesses. See United States v. Martinez-Mercado, 888 F.2d 1484, 1492
(5th Cir. 1989); Koch v. Puckett, 907 F.2d 524, 531 (5th Cir. 1990). Rather, “omissions
merely go to the credibility of the witnesses, an area within the province of the jury.”
Martinez-Mercado, 888 F.2d at 1492.
Similarly, if it is alleged that the prosecution used false evidence, a petitioner
“must show (1) the evidence was false, (2) the evidence was material, and (3) the
prosecution knew that the evidence was false.” Nobles v. Johnson, 127 F.3d 409, 415
(5th Cir. 1997).
In his first claim of prosecutorial misconduct, Dickson argues that the
Southwestern Institute of Forensic Science (“SWIFS”), the organization that conducted
the ballistics testing in his case, has “a long history of improper methods” and that the

15

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 16 of 23 PagelD 1786

prosecution was aware of this. Dkt. No. 3 at 10. Dickson further states that “the testing
procedures used by [SWIFS] has been fraught with falsified results, invalid testing
procedures, and corruption, especially concerning ballistics results.” Id. But Dickson
provides no evidence to demonstrate that the results of the ballistics tests in his case
was false. He only expresses his disagreement with the results and states that “every
other report” consistently showed results different from those found by SWIFS. Id.
Dickson’s argument fails to demonstrate a due process violation. While the results of
ballistics testing are material to a murder case in which the victim was killed by a gun
shot, as in this case, Dickson fails to demonstrate that the evidence provided by the
SWIFS employee was actually false, or, that even if it was false, the prosecutor was
aware of its falsity. Thus, this argument fails. See Nobles, 127 F.3d at 415.
Dickson also claims that the prosecutor committed misconduct by “coaching and
manipulating testimony.” Dkt. No. 3 at 13. He specifically alleges that the prosecutor
knew “that Ariel Wesley and Shaquira Robinson initially reported that [the victim] was
shot during a drive-by, after approaching the vehicle” and that their “in court
testimony had to be manipulated to show [the victim] was shot in the vehicle” in order
to conform to the prosecution’s theory. Id.
Again, Dickson fails to show a due process violation. First, Wesley and Robinson
both testified at trial that they saw the victim get pushed from the vehicle after they
heard gun shots. See Dkt. No. 14-15 at 160 (Wesley), 174 (Robinson); Dkt. No. 14-18
at 46-48 (Wesley). Although a police detective testified that Wesley and Robinson told
him that the victim had walked up to the side of the vehicle, then ran to the front of
16

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 17 of 23 PagelD 1787

the vehicle after being shot and tried to cross the street as more shots were fired, see
Dkt. No. 14-18 at 120-22, both Wesley and Robinson testified that they did not relay
that version of events to the detective, or did not remember relaying that version of
events, see id. at 52-53 (Wesley), 82-84 (Robinson).
Furthermore, even if Wesley’s and Robinson’s testimony varied from what they
had previously told to the detective, this type of inconsistency is not sufficient- to
demonstrate that either witness committed perjury. Contradictory trial testimony is
a credibility question for the jury. See Koch, 907 F.2d at 531.
Because Dickson fails to show Wesley or Robinson committed perjury, he
necessarily also fails to demonstrate that the prosecutor violated his right to due
process through the knowing use of perjured testimony at trial. See Faulder, 81 F.3d
at 519.
In any event, as to both of these claims, the state habeas court stated:
In his fourth ground for relief, Applicant alleges that the
State committed misconduct by knowingly presenting false
ballistics evidence.
Applicant has not provided the Court with any evidence,
beyond a blanket assertion that Texas forensic labs have a
long history of falsified results, that the test results in his
specific case were falsified. Conclusory allegations are
insufficient on their own to merit habeas relief and the
Court may deny relief when an applicant states only
conclusions without supporting facts. Ex parte Young 418
S.W. 2d 824 (Tex. Crim. App. 1967); Ex parte McPherson, 32
S.W.3d 860, 861(Tex Crim. App. 2000). Therefore, the Court
finds that Applicant’s fourth ground for relief is without
merit and recommends it be denied.
In his fifth ground for relief, Applicant alleges that the State
17

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 18 of 23 PagelD 1788

committed misconduct by manipulating eyewitnesses Ariel
Wesley and Shaquira Robinson to falsely testify that the
deceased was shot inside Applicant’s vehicle.
Again, Applicant has not provided the Court with any
evidence, beyond his assumption that the State must have
pressured the witnesses to lie, that the State pressured the
witnesses or that their testimony was false. Therefore, the
Court finds that Applicant’s fifth ground for relief is without
merit and recommends it be denied.
Dkt. No. 14-32 at 16-17. And Dickson fails to show the state court proceedings resulted
in a decision that was contrary to, or involved an unreasonable application of,
clearly-established federal law, as determined by the Supreme Court of the United
States, or that the decision was based on an unreasonable determination of the facts
in light of the evidence presented in the State court proceeding. Williams, 529 U.S. at
402-03; Childress v. Johnson, 103 F. 3d 1221,1224-25 (5th Cir. 1997). As such, Dickson
fails to show there was no reasonable basis for the state court to deny relief. See
Richter, 526 U.S. at 98.
C.

Trial Court Error

Dickson argues that the trial court erred by denying his motion to suppress
evidence gained from searches of his cell phone and vehicle, see Dkt. No. 3 at 14, and
by allowing in at trial “unadjudicated extraneous offense testimony,” id. at 15.
Dickson’s argument regarding the suppression motion is procedurally barred
from federal habeas review. Federal court review of a claim is procedurally barred if
the last state court to consider the claim expressly and unambiguously based its denial
of relief on a state procedural default. See Coleman v. Thompson, 501 U.S. 722, 729
18

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 19 of 23 PagelD 1789

(1991). And, if the state court explicitly invokes a procedural bar and alternatively
reaches the merits of a defendant’s claims, a federal court is still bound by the state
procedural default. See Harris v. Reed, 489 U.S. 255, 264 n.10 (1989). Where a state
court has explicitly relied on a procedural bar, a petitioner may not obtain federal
habeas corpus relief absent a showing of cause for the default and actual prejudice that
is attributable to the default, or that the federal court’s failure to consider the claim
will result in a miscarriage of justice. See Coleman, 501 U.S. at 750. A miscarriage of
justice in this context means that the petitioner is actually innocent of the crime for
which he was convicted. See Sawyer v. Whitley, 505 U.S. 333, 339-40 (1992).
Dickson claims that the trial court erred by denying his motion to suppress
evidence gained from searches of his cell phone and vehicle, see Dkt. No. 3 at 14, but
the CCA denied Dickson’s state habeas corpus writ without written order on findings
of trial court without a hearing, see Dkt. No. 14-25. Regarding this claim, the trial
court made the following findings and determinations:
In his sixth ground for relief, Applicant alleges that the trial
court committed error by denying his motion to suppress.
The Court finds that Applicant did not challenge the trial
court’s ruling on direct appeal. See Dickson v. State, No.
05-14-01061-CR, 2016 WL 772766 (Tex App -Dallas Feb. 29,
2016, no pet.). By failing to raise this challenge on appeal
Applicant forfeited it on habeas review. See Ex parte Kirby,
492 S.W.2d 579, 581(Tex. Crim. App. 1973) (denying
applicant s challenge to the legality of a search and seizure
because “the failure to raise the question of the sufficiency
of the affidavit on direct appeal is tantamount to an
abandonment of that complaint.” {citing Connally v. State,
492 S.W.2d 578, 578 (Tex. Crim. App 1973). Furthermore,
19

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 20 of 23 PagelD 1790

an Article 11.07 writ of habeas corpus should not be used to
litigate matters that should have been raised on direct
appeal. Ex parte Banks 769 S.W.2d 539 (Tex. Crim. App.
1989). Therefore, the Court finds that Applicants sixth
ground for relief is without merit and recommends it be
denied.
Dkt. No. 14-32 at 17. By adopting the findings and conclusions of the trial court, with
its citation to Ex parte Banks, the CCA expressly and unambiguously relied on a state
procedural bar determination. See Ex parte Banks, 769 S.W.2d at 540 (stating “[t]he
Great Writ should not be used to litigate matters which should have been raised on
appeal.”). The Fifth Circuit has recognized that this state rule is independent and
adequate to bar federal habeas corpus review. See Brewer v. Quarterman, 466 F.3d 344,
347 (5th Cir. 2006). Thus, Dickson’s claim is procedurally defaulted. See Harris, 489
U.S. at 264-65; Amos v. Scott, 61 F.3d 333, 338 (5th Cir. 1995). And this alleged ground
for relief is therefore procedurally barred. See Coleman, 501 U.S. at 750.
Dickson next argues that the trial court erred by allowing in at trial
“unadjudicated extraneous offense testimony.” Dkt. No. 3 at 15. In his federal habeas
petition, Dickson does not allege a violation of the United States Constitution or
federal law. He cites only to the Texas Rules of Evidence and the Texas Code of
Criminal Procedure. See Id. “Federal habeas relief cannot be had ‘absent the allegation
by a petitioner that he or she has been deprived of some right secured to him or her by
the United States Constitution or the laws of the United States.’” Malchi v. Thaler, 211
F.3d 953, 957 (5th Cir. 2000) (citing Orellana v. Kyle, 65 F.3d 29, 31 (5th Cir. 1995));
accord Estelle v. McGuire, 502 U.S. 62, 67-68 (1991) (“[wjehave stated many times that
20

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 21 of 23 PagelD 1791

‘federal habeas corpus relief does not lie for errors of state law.’... In conducting habeas
review, a federal court is limited to deciding whether a conviction violated the
Constitution, law, or treaties of the United States.”); Hill v. Johnson, 210 F.3d 481, 491
(5th Cir. 2000); Little u. Johnson, 162 F.3d 855, 862 (5th Cir. 1998). Thus, Dickson’s
claim is not cognizable in a federal habeas proceeding.
And, even if the claim were cognizable, Dickson provides no support from the
record for this claim. He only states, without further support from the record, that
there was no evidence that Dickson was responsible for threatening and intimidating
a prosecution witness and that, thus, the trial court erred in allowing in at trial
testimony to that effect. See Dkt. No. 3 at 15. Dickson’s claim, unsupported by evidence
from the record, is insufficient. See Schlang, 691 F.2d 799 (stating “[m]ere conclusory
statements do not raise a constitutional issue in a habeas case.”).
D.

Actual Innocence

Dickson contends that he is actually innocent. See Dkt. No. 3 at 16. The
Respondent treated this claim as a claim of insufficient evidence to support the
conviction. See Dkt. No. 12 at 28-31. And a review of the claim would suggest that
Dickson is arguing that the evidence presented at trial was insufficient to support the
conviction. See Dkt. No. 3 at 16. But, in his reply to the respondent’s response, Dickson
adamantly asserts that he is claiming actual innocence and not making a sufficiencyof-the-evidence argument. See Dkt. No. 20 at 18. He specifically states that he “does
not challenge the sufficiency of the evidence.” Id. Dickson further states that “this court

21

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 22 of 23 PagelD 1792

should recognize Dickson’s claim as actual innocence and consider it for review.” Id. at
19. The Court therefore considers Dickson’s claim to be one of actual innocence.
A claim of actual innocence does not state an independent, substantive
constitutional claim and is not a basis for federal habeas corpus relief. See Herrera u.
Collins, 506 U.S. 390 (1993). Claims of actual innocence are not cognizable on federal
habeas review. See United States v. Fields, 761 F.3d 443, 479 (5th Cir. 2014) (“[Fifth
Circuit] caselaw does not recognize freestanding actual innocence claims.”). A claim of
actual innocence may not be a basis for federal habeas corpus relief absent an
independent federal constitutional violation. See Dowthitt u. Johnson, 230 F.3d 733,
741 (5th Cir. 2000).
Dickson has not shown an independent federal constitutional violation, and so
his actual innocence claim is not cognizable on federal habeas appeal.
Recommendation
The Court should deny the application for a writ of habeas corpus.
A copy of these findings, conclusions, and recommendation shall be served on all
parties in the manner provided by law. Any party who objects to any part of these
findings, conclusions, and recommendation must file specific written objections within
14 days after being served with a copy. See 28 U.S.C. § 636(b)(1); FED. R. CIV. P.
72(b). In order to be specific, an objection must identify the specific finding or
recommendation to which objection is made, state the basis for the objection, and
specify the place in the magistrate judge’s findings, conclusions, and recommendation
where the disputed determination is found. An objection that merely incorporates by
22

Case 3:18-cv-01668-G-BN Document 21 Filed 03/29/19

Page 23 of 23 PagelD 1793

reference or refers to the briefing before the magistrate judge is not specific. Failure
to file specific written objections will bar the aggrieved party from appealing the
factual findings and legal conclusions of the magistrate judge that are accepted or
adopted by the district court, except upon grounds of plain error. See Douglass v.
United Serus. Auto. Assn, 79 F.3d 1415, 1417 (5th Cir. 1996).
DATED: March 29, 2019

DAVID L. HORAN
UNITED STATES MAGISTRATE JUDGE

23

